APPENDIX

TABLE OF CONTENTS

Page
Appendix A:
Appendix B:
Appendix C:

Appendix D:

Appendix E:

Appendix F:

Appendix G:

Appendix H:

Appendix I:

Oklahoma Court of Criminal Appeals
opinion, Mar. 11, 2021 ................................... 1a
Oklahoma Court of Criminal Appeals
correction order, Mar. 19, 2021 .................. 31a
Oklahoma Court of Criminal Appeals
order remanding for evidentiary
hearing, Aug. 12, 2020 ................................. 33a
McClain County District Court
findings of facts and conclusions of law,
Oct. 13, 2020 ................................................. 37a
Oklahoma Court of Criminal Appeals
order staying issuance of mandate,
Mar. 31, 2021 ................................................ 49a
Oklahoma Court of Criminal Appeals
order denying motion for leave to file
petition for rehearing, Apr. 7, 2021 ........... 50a
Oklahoma Court of Criminal Appeals
order granting emergency motion
to recall the mandate, Apr. 9, 2021 ............ 52a
Oklahoma Court of Criminal Appeals
order staying issuance of mandate,
Apr. 15, 2021................................................. 54a
Relevant statutory provisions .................... 56a

1a
APPENDIX A
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner
v.
STATE OF OKLAHOMA,
Respondent

Filed: March 11, 2021
OPINION GRANTING
POST-CONVICTION RELIEF
KUEHN, Presiding Judge.
¶1 Shaun Michael Bosse was tried by jury and convicted of three counts of First Degree Murder and one
count of First Degree Arson in the District Court of
McClain County, Case No. CR-2010-213. He was sentenced to death on the murder counts and to thirty-five
(35) years imprisonment and a $25,000.00 fine for the arson count.

2a
¶2 On direct appeal, this Court upheld Petitioner’s
convictions and sentences.1 Petitioner’s first Application
for Post-Conviction Relief in this Court was denied.2 Petitioner filed this Successive Application for Post-Conviction Relief on February 20, 2019. The crux of Petitioner’s
Application lies in his jurisdictional challenge.
¶3 In Proposition I Petitioner claims the District
Court lacked jurisdiction to try him. Petitioner argues
that his victims were citizens of the Chickasaw Nation,
and the crime occurred within the boundaries of the
Chickasaw Nation. He relies on McGirt v. Oklahoma, 140
S. Ct. 2452 (2020) in which the United States Supreme
Court reaffirms the basic law regarding federal, state and
tribal jurisdiction over crimes, which is based on the location of the crimes themselves and the Indian status of the
parties. The Court first determined that Congress,
through treaty and statute, established a reservation for
the Muscogee Creek Nation. Id., 140 S. Ct. at 2460-62.
Having established the reservation, only Congress may
disestablish it. Id., 140 S. Ct. at 2463; Solem v. Bartlett,
465 U.S. 463, 470 (1984). Congress must clearly express
its intent to disestablish a reservation, commonly with an
“explicit reference to cession or other language evidencing the present and total surrender of all tribal interests.”
McGirt, 140 S. Ct. at 2462 (quoting Nebraska v. Parker,
136 S. Ct. 1072, 1079 (2016)). The Court concluded that
Congress had not disestablished the Muscogee Creek
Reservation. McGirt, 140 S. Ct. at 2468. Consequently,
Bosse v. State, 2017 OK CR 10, 400 P.3d 834, reh’g granted and
relief denied, 2017 OK CR 19, 406 P.3d 26, cert. denied, 138 S. Ct. 1264
(2018).
1

Bosse v. State, No. PCD-2013-360 (Okl. Cr. Dec.16, 2015) (not for
publication).
2

3a
the federal and tribal governments, not the State of Oklahoma, have jurisdiction to prosecute crimes committed by
or against Indians on the Muscogee Creek Reservation.
18 U.S.C. §§ 1152, 1153.
¶4 The question of whether Congress has disestablished a reservation is primarily established by the language of the law—statutes and treaties—concerning relations between the United States and a tribe. McGirt, 140
S. Ct. at 2468. “There is no need to consult extratextual
sources when the meaning of a statute’s terms is clear.
Nor may extratextual sources overcome those terms.”
McGirt, 140 S. Ct. at 2469. Neither historical practices,
nor demographics, nor contemporary events, are useful
measures of Congress’s intent unless there is some ambiguity in statute or treaty language. Id. at 2468-69; see also
Oneida Nation v. Village of Hobart, 968 F.3d 664, 675 n.4
(7th Cir. 2020) (McGirt “establish[ed] statutory ambiguity as a threshold for any consideration of context and
later history.”). Thus our analysis begins, and in the case
of the Chickasaw Nation, ends, with the plain language of
the treaties.
¶5 McGirt itself concerns only the prosecution of
crimes on the Muscogee Creek Reservation. However, its
reasoning applies to every claim that the State lacks jurisdiction to prosecute a defendant under 18 U.S.C.
§§ 1152, 1153. Of course, not every tribe will be found to
have a reservation; nor will every reservation continue to
the present. “Each tribe’s treaties must be considered on
their own terms. . . . ” McGirt, 140 S. Ct. at 2479. The treaties concerning the Five Tribes which were resettled in
Oklahoma in the mid-1800s (the Muscogee Creek, Cherokee, Chickasaw, Choctaw, and Seminole) have signifi-

4a
cantly similar provisions; indeed, several of the same treaties applied to more than one of those tribes. It is in that
context that we review Petitioner’s claim.
¶6 On August 12, 2020, this Court remanded this case
to the District Court of McClain County for an evidentiary
hearing. The District Court was directed to make findings
of fact and conclusions of law on two issues: (a) the victims’
status as Indians; and (b) whether the crime occurred in
Indian Country, within the boundaries of the Chickasaw
Nation Reservation. Our Order provided that the parties
could enter into written stipulations. On October 13, 2020,
the District Court filed its Findings of Fact and Conclusions of Law in the District Court.
Stipulations regarding victims’ Indian status
¶7 The parties stipulated that all three victims of the
crime, Katrina and Christian Griffin and Chasity Hammer, were members of the Chickasaw Nation. This stipulation included recognition that the Chickasaw Nation is a
federally recognized tribe. The District Court concluded
as a matter of law that all three victims had some Indian
blood and were recognized as Indian by a tribe or the federal government. We adopt these findings and conclusions, and find that the victims in this case were members
of the Chickasaw Nation.
District Court Findings of Fact
¶8 The District Court found that Congress established a reservation for the Chickasaw Nation of Oklahoma. The District Court found these facts:
(1) The Indian Removal Act of 1830 authorized the
federal government to negotiate with Native
American tribes for their removal to territory west
of the Mississippi River in exchange for the tribes’

5a
ancestral lands. Indian Removal Act of 1830, § 3, 4
Stat. 411, 412.
(2) The 1830 Treaty of Dancing Rabbit Creek (1830
Treaty) granted citizens of the Choctaw Nation
and their descendants specific land in fee simple,
“while they shall exist as a nation and live on it,” in
exchange for cession of the Choctaw Nation lands
east of the Mississippi River. Treaty of Dancing
Rabbit Creek, art. 2, Sept. 27, 1830, 7 Stat 333. The
Treaty provided that any territory or state should
have neither the right to pass laws governing the
Choctaw Nation nor embrace any part of the land
granted the Choctaw Nation by the treaty. Id. art.
4. The land boundaries were:
[B]eginning near Fort Smith where the Arkansas boundary crosses the Arkansas River,
running thence to the source of the Canadian
fork; if in the limits of the United States, or to
those limits; thence due south to Red River,
and down Red River to the west boundary of
the Territory of Arkansas; thence north along
that line to the beginning.
Id. art. 2.
(3) The 1837 Treaty of Doaksville (1837 Treaty)
granted the Chickasaw Nation a district within the
boundaries of the 1830 Treaty of Dancing Rabbit
Creek, to be held by the Chickasaw Nation on the
same terms as were granted to the Choctaw Nation. 1837 Treaty of Doaksville, art. 1, Jan. 17, 1837,
11 Stat 573.
(4) Congress modified the western boundary of the
Chickasaw Nation in the 1855 Treaty of Washington (1855 Treaty), pledging to “forever secure and

6a
guarantee” the land to those tribes, and reserving
them from sale without both tribes’ consent. 1855
Treaty of Washington with the Choctaw and the
Chickasaw, art. 1, 2, June 22, 1855, 11 Stat. 611.
This Treaty also reaffirmed the Chickasaw Nation’s right of self-government. Id. art. 7.
(5) In 1866, the United States entered into the 1866
Treaty of Washington (1866 Treaty), which reaffirmed both the boundaries of the Chickasaw Nation and its right to self-governance. 1866 Treaty
of Washington with the Chickasaw and Choctaw,
art. 10, Apr. 28, 1866, 14 Stat. 699.
(6) The parties stipulated that the location of the
crime, 15634 212th St., Purcell, OK, is within the
boundaries of the Chickasaw Nation set forth in
the 1855 and 1866 Treaties.
(7) The property at which the crime occurred was
transferred directly in 1905 from the Choctaw and
Chickasaw Nations to George Roberts, in a Homestead Patent. Title may be traced directly to the
Reservation lands granted the Choctaw and Chickasaw Nations, and subsequently allotted to individuals, and was never owned by the State of Oklahoma.
(8) The Chickasaw Nation is a federally recognized Indian tribe, exercising sovereign authority under a
constitution approved by the United States Secretary of the Interior.
(9) No evidence before the District Court showed that
the treaties were formally nullified or modified in
any way to reduce or cede Chickasaw lands to the
United States or to any other state or territory.

7a
(10) The parties stipulated that if the District Court
determined the treaties established a reservation, and if the District Court concluded that
Congress never explicitly erased the boundaries
and disestablished the reservation, then the
crime occurred within Indian Country as defined
by 18 U.S.C. § 1151(a).
District Court Conclusions of Law
¶9 The District Court first found, and this Court
agrees, that the absence of the word “reservation” in the
1855 and 1866 Treaties is not dispositive. McGirt, 140
S. Ct. at 2461. The court emphasized the language in the
1830 Treaty that granted the land “in fee simple to them
and their descendants, to inure to them while they shall
exist as a nation.” 1830 Treaty, art. 2. The 1830 Treaty secured rights of self-government and jurisdiction over all
persons and property with Treaty territory, promising
that no state should interfere with the rights granted under the Treaty. Id. art. 4. That treaty applies to the Chickasaw Nation under the 1837 Treaty of Doaksville, which
guaranteed the Chickasaw Nation the same privileges,
rights of homeland ownership and occupancy granted the
Choctaw Nation by the 1830 Treaty. 1837 Treaty, art. 1.
In the 1855 Treaty, the United States promised to “forever secure and guarantee” specific lands to the Choctaw
and Chickasaw Nations, and reaffirmed those tribes’
rights to self-government and full jurisdiction over persons and property within their limits. 1855 Treaty arts. 1,
7. This was reaffirmed in the 1866 Treaty, by which the
Chickasaw and Choctaw Nations agreed to cede defined
lands to the United States for a sum certain. 1866 Treaty,
art. 3. Thus, the District Court concluded, the treaty
promises to the Chickasaw Nation were not gratuitous.
McGirt, 140 S. Ct. at 2460.

8a
¶10 Based on this law, the District Court concluded
that Congress established a reservation for the Chickasaw Nation. We adopt this conclusion of law.
¶11 The District Court found that Congress has not
disestablished the Chickasaw Nation Reservation. After
Congress has established a reservation, only Congress
may disestablish it, by clearly expressing its intent to do
so; usually this will require “an explicit reference to cession or other language evidencing the present and total
surrender of all tribal interests.” McGirt, 140 S. Ct. at
2463 (quoting Parker, 136 S. Ct. at 1079). The District
Court found no explicit indication or expression of Congressional intent to disestablish the Chickasaw Reservation. The Court specifically stated, “No evidence was presented that the Chickasaw reservation was ‘restored to
public domain,” discontinued, abolished or vacated.’ Without, explicit evidence of a present and total surrender of
all tribal interests, the Court cannot find the Chickasaw
reservation was disestablished.” Findings of Fact and
Conclusions of Law, CF-2010-213, PCD-2019-124, Oct. 13,
2020 at 9-10 (internal citations omitted).
¶12 Based on the evidence, the District Court concluded that Congress never erased the boundaries and
disestablished the Chickasaw Nation Reservation. The
Court further concluded that the crimes at issue occurred
in Indian Country. We adopt these conclusions.
The State’s Arguments
¶13 After the evidentiary hearing, a supplemental
brief was filed on behalf of the State of Oklahoma by the
District Attorney for McClain County. The Attorney General and District Attorney ask this Court to find that the
State of Oklahoma has concurrent jurisdiction with the

9a
federal and tribal governments where, as here, a non-Indian commits a crime against Indian victims in Indian
Country. The Attorney General and the District Attorney
suggest that various procedural defenses should apply.
The District Attorney also raises a separate claim, arguing that this Court should alter its definition of Indian status, an argument not raised by the Attorney General.
Blood Quantum
¶14 The District Attorney states that the District
Judge avoided the issue of blood quantum when making
her findings and conclusions.3 He now requests that this
Court require a specific blood quantum to meet the definition of Indian status to avoid a “jurisdictional loophole”.
In the Remand Order, and in the numerous similar Orders in which we remanded other cases for consideration
of the jurisdictional question, this Court clearly set out the
definition of Indian it expected lower courts to use. We directed the District Court to “determine whether (1) the
victims had some Indian blood, and (2) were recognized as
an Indian by a tribe or by the federal government.” This
test, often referred to as the Rogers4 test, is used in a majority of jurisdictions, including in cases cited by the District Attorney.
¶15 In stating this test we cited two cases from the
Tenth Circuit, United States v. Diaz, 679 F.3d 1183, 1187
(10th Cir. 2012); United States v. Prentiss, 273 F.3d 1277,

The Judge did not avoid the issue. She refused to set a quantum
amount as requested by the District Attorney and followed this
Court’s Remand Order directing her to find “some” Indian blood under the definitions recognized by the Tenth Circuit opinions referenced.
3

4

United States v. Rogers, 45 U.S. 567, 572-73 (1846).

10a
1280-81 (10th Cir. 2001).5 The references clearly state the
test to be used in determining Indian status. Prentiss discusses the history, wide acceptance, and application of the
Rogers test. The opinion notes that the first prong of the
test may be proved by a variety of evidence, which may
include a certificate of tribal enrollment which sets forth
the person’s degree of Indian blood, or a listing on a tribal
roll which requires a certain degree of Indian blood.
Prentiss, 273 F.3d at 1282-83. Diaz states that the Tenth
Circuit uses a “totality-of-the-evidence approach,” which
may include proof of blood quantum, but only if a particular tribe requires it. Diaz, 679 F.3d at 1187.
¶16 The District Attorney correctly observes that a
minority of courts have chosen to impose a particular
blood quantum, or to state in individual cases whether a
specific blood quantum meets the threshold of “some
blood.” The State of Oklahoma is within the jurisdictional
boundaries of the Tenth Circuit. If the jurisdictional test
is met and it is determined that a particular case must be
prosecuted in a federal district court, the Tenth Circuit
definition will govern in that court. There is simply no
rhyme nor reason to require a test for Indian status in our
Oklahoma state courts that is significantly different from

5
In support of his claim that more than “some” Indian blood is required, Respondent cites dicta in Goforth v. State, 1982 OK CR 48,
¶ 6, 644 P.2d 114, 116. With almost a quarter blood quantum, the defendant easily met the requirement of the first prong, and this Court
did not further analyze that issue. However, in referring to the twopart test, this Court in a 1982 decision, used the word “significant”
rather than “some.” Id. This single word, describing an issue not the
focus of the appeal, does not substitute for the entire body of state
and federal jurisprudence correctly stating the test.

11a
that used in the comparable federal courts.6 Consistency
and economy of judicial resources compel us to adopt the
same definition as that used by the Tenth Circuit.7
¶17 Without any foundation in law, the District Attorney speculates that, without a precise blood quantum
requirement, a defendant might claim he is Indian in a
state court—thus defeating state court jurisdiction—and
yet be found not Indian in federal court, escaping criminal
prosecution altogether. He cites no relevant or persuasive
law to support this speculation. The District Attorney relies on a single case from the State of Washington, State
v. Dennis, 840 P.2d 909 (Wash. App. 1992). Blood quantum was not an issue in that case and is not mentioned in
the opinion. The defendant, a member of a Canadian tribe,
was charged in state court with murdering his wife. In
state court, defendant successfully argued that he was an
Indian under the Major Crimes Act, Section 1153, and
thus not subject to State jurisdiction. Of course, the federal district court found otherwise, since defendant was
Interestingly, the District Attorney argues instead that a “loophole” will exist if we do not have the same standard as the Tenth Circuit.
6

7
In addition, to require a specific blood quantum would be out of
step with other recent developments. In 2018, Congress amended the
Stigler Act. Enacted in 1947, that Act was one of several Acts restricting the conveyance of lands that were allotted to citizens of the Five
Tribes, if the owner had one-half or more of Indian blood. The restrictions on conveyance were designed to protect tribal citizens. As
time passed, requiring such a high blood quantum stripped those protections from many owners and reduced the amount of restricted
land. The recent amendment struck this provision, replacing it with
the phrase “of whatever degree of Indian blood.” Stigler Act Amendments of 2018, P.L. 115-399, Sec. 1(a). We will not disregard this clear
statement of Congressional intent regarding a blood quantum requirement for the Five Tribes.

12a
not a member of a federally recognized tribe. Id., 840 P.2d
at 910. The State never appealed the initial dismissal in
state district court. After federal charges were dismissed,
the State of Washington attempted to reinstate the
charges. The Washington Court of Appeals found that,
given the State’s failure to appeal the initial state court
ruling, the State was precluded by statute from reinstating the case. Id. at 910-11. The appellate court specifically
noted that the problem in this case was not the defendant’s claim, but that the trial court made a mistake of law
in concluding defendant was Indian under the Major
Crimes Act. Id. If anything, this case underscores the utility and flexibility of the Rogers test, when correctly applied. It is clear that, using that test, jurisdiction always
lay with the State of Washington.
¶18 There simply is no jurisdictional loophole as described by the District Attorney. To cure this non-existent
problem, the State would have this Court adopt a test
which is different from, and potentially more restrictive
than, the test used in our corresponding federal system.
This would be far more likely to result in the kind of confusion the District Attorney warns against. Say this Court
were to adopt a particular blood quantum number. A defendant could be a member of a federally recognized tribe,
with Indian blood less than that quantum. He would not
be Indian in state court, and the State would retain jurisdiction. However, when the convicted defendant filed a
writ of habeas corpus in federal court, because he had
some Indian blood, he would meet the Rogers test. The
federal court would find that the State had no jurisdiction,
and the defendant should have been tried in federal court
to begin with—just like McGirt. Consistency and economy of judicial resources compel us to adopt the same definition as that used by the Tenth Circuit.

13a
¶19 Furthermore, we find it inappropriate for this
Court to be in the business of deciding who is Indian. As
sovereigns, tribes have the authority to determine tribal
citizenship. Plains Commerce Bank v. Long Family
Land & Cattle Co., 554 U.S. 316, 327 (2008); see also
United States v. Antelope, 430 U.S. 641, 646 (1977) (Indian
status determined by recognition by tribe acting as separate sovereign, not by racial classification). Some tribes
have a blood quantum requirement, and some do not. Of
those that do, the percentage differs among individual
tribes. If a person charged with a crime has some Indian
blood, and they are recognized as being an Indian by a
tribe or the federal government, this Court need not second-guess that recognition based on an arbitrary mathematical formula. The District Court correctly followed
this Court’s instructions in the Order remanding this case,
determining that the victims had some Indian blood.
Procedural Defenses
¶20 Both the Attorney General and the District
Court ask this Court to consider this case barred for a variety of procedural reasons: waiver under the successive
capital post-conviction statute, 22 O.S. 2011, § 1089(D),
and waiver of the jurisdictional challenge; failure to meet
the sixty-day filing deadline to raise a previously unavailable legal or factual basis in subsequent post-conviction
applications under Rule 9.7(G)(3), Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch. 18, App. (2021);
and the doctrine of laches. Through the District Attorney,
the State admits that this Court has resolved these issues
in this case in our Order remanding for an evidentiary
hearing:
Under the particular facts and circumstances of this
case, and based on the pleadings in this case before the

14a
Court, we find that Petitioner’s claim is properly before this court. The issue could not have been previously presented because the legal basis for the claim
was unavailable. 22 O.S. §§ 1089(D)(8)(a), 1089(D)(9)
(a); McGirt v. Oklahoma, 140 S. Ct. 2452 (2020).
Bosse v. State, PCD-2019-124, Order Remanding for Evidentiary Hearing at 2 (Okl. Cr. Aug. 12, 2020). The State
asks us to reconsider this determination, but offers no
compelling arguments in support.8
¶21 It is settled law that [s]ubject-matter jurisdiction
can never be waived or forfeited.” Gonzalez v. Thaler, 565
U.S. 134, 141 (2012). The District Attorney admits that
generally litigants “cannot waive the argument that the
district court lacks subject-matter jurisdiction,” citing
United States v. Green, 886 F.3d 1300, 1304 (10th Cir.
2018); see also United States v. Garcia, 936 F.3d 1128,
1140-41 (10th Cir. 2019) (parties can neither waive subject-matter jurisdiction nor consent to trial in a court
without jurisdiction). This Court has repeatedly held that
the limitations of post-conviction or subsequent post-conviction statutes do not apply to claims of lack of jurisdiction. Wackerly v. State, 2010 OK CR 16, ¶ 4, 237 P.3d 795,
797; Wallace v. State, 1997 OK CR 18, ¶ 15, 935 P.2d 366,
372; see also Murphy v. State, 2005 OK CR 25, 5-7, 124

8
The State argues both that application of McGirt will have significant consequences for criminal prosecutions, and that waiver should
apply because there is really nothing new about the claim. Taken as a
whole, the arguments advanced by the State in both its Response and
Supplemental Brief support a conclusion that, although similar claims
may have been raised in the past in other cases, the primacy of State
jurisdiction was considered settled and those claims had not been expected to prevail. The legal basis for this claim was unavailable under
Section 1089(D).

15a
P.3d 1198, 1200 (recognizing limited scope of post-conviction review, then addressing newly raised jurisdictional
claim on the merits). In Wackerly, we also held the time
limit on newly raised issues in Rule 9.7 did not apply to
jurisdictional questions. Wackerly, 2010 OK CR 16, ¶ 4,
237 P.3d at 797.9
¶22 McGirt provides a previously unavailable legal
basis for this claim. Subject-matter jurisdiction may—indeed, must—be raised at any time. No procedural bar applies, and this issue is properly before us. 22 O.S.
§§ 1089(D)(8)(a), 1089(D)(9)(a).
There is no concurrent jurisdiction.
¶23 The General Crimes Act and the Major Crimes
Act give federal courts jurisdiction over crimes committed
by or against Indians in Indian Country. 18 U.S.C.
§§ 1152, 1153. Congress provides that crimes committed
in certain locations or under some specific circumstances
are within the sole and exclusive jurisdiction of the United
States. Section 1152, the General Crimes Act, brings
crimes committed in Indian Country within that jurisdiction, unless they lie within the jurisdiction of tribal courts
or jurisdiction is otherwise expressly provided by federal
law. 18 U.S.C. § 1152; see also 18 U.S.C. § 1153 (Major
Crimes Act). This gives federal courts jurisdiction over
Indians and non-Indians who commit crimes against Indians in Indian Country. By explicitly noting that it may ex-

9
The principle that subject-matter jurisdiction may not be waived
also settles the State’s argument based on laches—that Petitioner
waited too long to raise his claim, and the passage of time makes resolution of the issue, or a grant of relief, difficult to determine or implement. None of the cases on which the State relies concern a claim
of lack of jurisdiction.

16a
pressly provide otherwise, Congress has preempted jurisdiction over these crimes in state courts. Indeed, this
Court has held that federal law preempts state jurisdiction over crimes committed by or against an Indian in Indian Country. Cravatt v. State, 1992 OK CR 6, ¶ 20, 825
P.2d 277, 280. State courts retain jurisdiction over nonIndians who commit crimes against non-Indians in Indian
Country. Id.; Salem, 463 U.S. at 465 n.2; Williams v.
United States, 327 U.S. 711, 714 & n.10 (1946).
¶24 The State argues that, despite the clear language
of both statute and case law, federal and state courts have
concurrent jurisdiction over non-Indians under the General Crimes Act. The law does not support this argument.
The Attorney General relies in part on United States v.
McBratney, 104 U.S. 621 (1881) to support his argument.
However, in McBratney, a non-Indian murdered another
non-Indian within the boundaries of the Ute Reservation.
The Supreme Court held that the federal government had
no jurisdiction to prosecute a crime committed in Indian
Country where neither the perpetrator nor the victim
were Indian. Id., 104 U.S. at 624. Nothing in that opinion
supports a conclusion that, where federal jurisdiction exists by statute, states have concurrent jurisdiction as well.
And the Supreme Court itself later refuted any such interpretation. In Donnelly v. United States, the Court held
that McBratney did not apply to “offenses committed by
or against Indians,” which were subject to federal jurisdiction. Donnelly, 228 U.S. 243, 271-72 (1913). In the context of federal criminal jurisprudence and Indian Country, Donnelly reaffirmed Congress’s preemption of state
jurisdiction over crimes by or against Indians.10 More recently, the Court has noted that where federal jurisdiction
Respondent also misunderstands the discussion in Ex parte Wilson, 140 U.S. 575 (1891). There, the defendant and victim were non10

17a
lies under Section 1153, it preempts state jurisdiction.
United States v. John, 437 U.S. 634, 651 (1978); see also
Goforth v. State, 1982 OK CR 48, ¶ 5, 644 P.2d 114, 115-16
(federal jurisdiction under §§ 1152, 1153 preempts state
jurisdiction except as to crimes among non-Indians).
¶25 The General Crimes Act provides that federal
jurisdiction may be changed by law. 18 U.S.C. § 1152. And
Congress has done so, giving the State of Kansas criminal
jurisdiction on Indian reservations in that state. The Kansas Act conferred jurisdiction on Kansas courts for offenses of state law committed by or against Indians on
reservations in Kansas. 18 U.S.C. § 3243. The Supreme
Court determined that this Act confers concurrent jurisdiction on State courts only to the extent that the State of
Kansas may prosecute people for state law offenses that
are also punishable as offenses under federal law; otherwise, the jurisdiction to prosecute federal crimes committed on Kansas reservations lies with the federal government. Negonsott v. Samuels, 507 U.S. 99, 105-106 (1993).
¶26 Congress also created the opportunity for six
specific states to exercise jurisdiction over crimes committed in Indian Country by enacting Public Law 280. Act
of Aug. 15, 1953, Pub. L. No. 67, Stat. 588, codified at 18
U.S.C. § 1162, 25 U.S.C. § 1321-26; 18 U.S.C. § 1162(a). In
a separate provision, P.L. 280 created a framework for
other states to assume jurisdiction over crimes committed
Indian. The defendant argued that the federal government could not
retain jurisdiction over crimes committed by and against Indians
while allowing state jurisdiction over crimes involving non-Indians
committed on a reservation; he claimed that either the federal government had sole and exclusive jurisdiction over every crime, or it
had none at all. Id. at 577. The Court rejected this argument, noting
that Congress had the power to grant and limit jurisdiction in federal
courts. Id. at 578.

18a
in Indian Country, with the consent of the affected tribe;
the state and the federal government may have concurrent jurisdiction if the affected tribe requests it and with
the consent of the Attorney General. 25 U.S.C. § 1321(a).
Oklahoma has not exercised the options for criminal jurisdiction afforded by P.L. 280. Cravatt, ¶ 15, 825 P.2d at 279.
¶27 The Kansas Act and P.L. 280 would have been
unnecessary if, as the State argues, state and federal governments already have concurrent jurisdiction over nonIndians who commit crimes in Indian Country. Rather,
these Acts are examples of how Congress may implement
the provision in Section 1152, allowing for an exception to
federal jurisdiction. Congress has written no law similarly
conferring jurisdiction on Oklahoma courts, or otherwise
modifying the statutory provisions granting jurisdiction
for prosecution of crimes in Indian Country to federal
courts in Oklahoma. Respondent does not suggest it has.
¶28 Absent any law, compact, or treaty allowing for
jurisdiction in state, federal or tribal courts, federal and
tribal governments have jurisdiction over crimes committed by or against Indians in Indian Country, and state jurisdiction over those crimes is preempted by federal law.
The State of Oklahoma does not have concurrent jurisdiction to prosecute Petitioner.
Conclusion
¶29 Petitioner’s victims were Indian, and this crime
was committed in Indian Country. The federal government, not the State of Oklahoma, has jurisdiction to prosecute Petitioner. Proposition I is granted. Propositions II
and III are moot.

19a
DECISION
¶30 The Judgment and Sentence of the District
Court of McClain County is REVERSED and the case is
REMANDED with instructions to DISMISS. Pursuant
to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE is
STAYED for twenty (20) days from the delivery and filing
of this decision.
ROWLAND, Vice Presiding Judge, concurring in results:
¶1 I concur in the result of the majority opinion, but
write separately to relate my views on two of the issues
discussed therein, namely the test for Indian status and
the use of the term subject matter jurisdiction.
A. The Test for Indian Status
¶2 My first objection with the majority opinion is its
dismissal of the thought that this Court should decide who
is Indian. Making a finding on the defendant’s Indian status is precisely what we must do in order to determine
whether the State of Oklahoma has jurisdiction since federal jurisdiction applies only to Indians. One question before us is what test we should employ to decide this particular component of Bosse’s claim. In that regard, I agree
fully with the majority that our test for Indian status must
be identical to that used by the United States Court of Appeals for the Tenth Circuit.
¶3 The Major Crimes Act is pre-emptive of state
criminal jurisdiction “when it applies. . . . ” United States
v. John, 437 U.S. 634, 651 (1978) (emphasis added). If the
Indian Country Crimes Act or Major Crimes Act do not
apply, then the State of Oklahoma, as a sovereign with
general police powers, has obvious authority to prosecute

20a
and punish crimes within its borders. Adopting a test different from that used by federal courts risks this Court
dismissing a case where the crime was committed in Indian country on the basis that a defendant is Indian and
the federal court, under a different test, determining the
defendant is not Indian and thus there is no federal jurisdiction.1 That is the type of jurisdictional void this Court
warned of in Goforth v. State, 1982 OK CR 48, 644 P.2d
114, where we interpreted Article 1, Section 3 of the Oklahoma Constitution to disclaim jurisdiction over Indian
lands only when federal jurisdiction is apparent. “[W]here
federal law does not purport to confer jurisdiction on the
United States courts, the Oklahoma Constitution does not
deprive Oklahoma courts from obtaining jurisdiction over
the matter.” Id. 1982 OK CR 48, 118, 644 P.2d at 116.
B. Subject Matter Jurisdiction
¶4 The other portion of today’s majority opinion with
which I do not agree is that the federal criminal statutes
involved here deprive Oklahoma courts of subject matter
jurisdiction. “Subject matter jurisdiction defines the
court’s authority to hear a given type of case.” Carlsbad
Tech., Inc. v. HIF Bio, Inc., 556 U.S. 635, 639 (2009). Our
cases recognize three components to jurisdiction: “(1) jurisdiction over the subject matter—the subject matter in
this connection was the criminal offense of murder, (2) jurisdiction over the person, and (3) the authority under law
to pronounce the particular judgment and sentence herein
rendered.” Petition of Dare, 1962 OK CR 35, ¶5, 370 P.2d
846, 850-51. Like Dare, the subject matter in this case is a
1
Because, as explained later in this writing, I do not think subject
matter jurisdiction is implicated, I see no reason the State could not
refile its charges in such an instance, but that is, of course, not before
the Court at this time.

21a
murder prosecution. The subject matter jurisdiction of
Oklahoma courts is established by Article 7 of our State
Constitution and Title 20 of our statutes which grant general jurisdiction, including over murder cases, to our district trial courts. Basic rules of federalism dictate that
Congress has no power to expand or diminish that jurisdiction except where Congress has created a federal cause
of action and allowed state courts to assume jurisdiction.
See Simard v. Resolution Tr. Corp., 639 A.2d 540, 545
(D.C. 1994) (noting presumption of concurrent jurisdiction among federal and state courts is rebutted only by a
clear expression by Congress vesting federal courts with
exclusive jurisdiction). Were it otherwise, Congress could
legislatively tinker with the authority of state courts to
hear all type of state crimes or civil causes of action.
¶5 What Congress can do and has done is exercise its
own territorial jurisdiction over Indians in Indian Country by virtue of its plenary power to regulate affairs with
Indian tribes. “Congress possesses plenary power over
Indian affairs, including the power to modify or eliminate
tribal rights.” South Dakota v. Yankton Sioux Tribe, 522
U.S. 329, 343 (1998). Federal criminal authority over socalled “federal enclaves” is found at 18 U.S.C. § 7, which
begins with the words, “The term especial maritime and
territorial jurisdiction of the United States’, as used in
this title, includes. . . . ” (emphasis added). The Indian
Country Crimes Act, 18 U.S.C. § 1152, with exceptions,
“extends the general criminal laws of federal maritime
and enclave jurisdiction to Indian country. . . . ” Negonsott
v. Samuels, 507 U.S. 99, 102 (1993). Thus a plain reading
of Negonsott in tandem with Section 7 makes clear that it
is territorial jurisdiction, not subject matter jurisdiction,
which is at issue. See also United States v. Smith, 925 F.3d
410, 415 (9th Cir.), cert. denied, 140 S. Ct. 407 (2019) (finding Indian Country is a federal enclave for purposes of 18

22a
U.S.C. § 7). This is likely why none of the cases cited in
the majority opinion hold that the state lacks subject matter jurisdiction over crimes by or against Indians in Indian Country. In United States v. Langford, 641 F.3d
1195, 1197 n.1 (10th Cir. 2011), the Tenth Circuit stated
explicitly that the federal jurisdiction under these statutes is not subject matter jurisdiction:
When we speak of jurisdiction, we mean sovereign
authority, not subject matter jurisdiction. Cf.
Prentiss, 256 F.3d at 982 (disclaiming the application
of subject matter jurisdiction analysis to cases involving an inquiry under the ICCA). This is consistent with
use of the term in United States v. McBratney, 104
U.S. 621, 623-4, 26 L.Ed. 869 (1881).
(Emphasis added).
¶6 This is an important distinction, because as the majority makes clear, the lack of subject matter jurisdiction
cannot be waived or forfeited and may be raised at any
point in the litigation. Conversely, territorial jurisdiction
may be subject to waiver. See Application of Poston, 1955
OK CR 39, ¶ 35, 281 P.2d 776, 785 (request for relief on
ground that district court did not have territorial jurisdiction was denied; claim was deemed waived because it was
not raised below). See also State v. Randle, 2002 WI App
116, ¶ 14, 252 Wis. 2d 743, 751, 647 N.W.2d 324, 329 (concluding territorial jurisdiction subject to waiver in some
instances); Porter v. Commonwealth, 276 Va. 203, 229, 661
S.E.2d 415, 427 (Va. 2008) (territorial jurisdiction is
waived if not properly and timely raised); In re Teagan
K.-O., 335 Conn. 745, 765 n. 22, 242 A.3d 59, 73 n. 22 (Conn.
2020) (territorial jurisdiction may be subject to waiver).
But see State v. Dudley, 364 S.C. 578, 582, 614 S.E.2d 623,
625-26 (2005) (“Although territorial jurisdiction is not a
component of subject matter jurisdiction, we hold that it

23a
is a fundamental issue that may be raised by a party or by
a court at any point in the proceeding. . . . The exercise of
extraterritorial jurisdiction implicates the state’s sovereignty, a question so elemental that we hold it cannot be
waived by conduct or by consent.” (Citation and footnote
omitted.)).
¶7 Characterizing Sections 1152 and 1153 as implicating subject matter jurisdiction would allow a defendant,
knowing he is Indian and that his crimes fall within the
Major Crimes Act, to forum shop, by rolling the dice at a
state trial and then wiping that slate clean if he receives
an unsatisfactory verdict by asserting his Indian status.
Viewing it as territorial jurisdiction avoids this absurdity,
and would allow the possibility that procedural bars,
laches, etc. might preclude some McGirt claims.2
¶8 In this case, however, I agree with the majority that
our earlier ruling in our Remand Order—that Bosse timely
met the requirements for raising a claim based on new law
under the Capital Post-Conviction Act—resolved any claim
that Bosse is procedurally barred from asserting this claim
on post-conviction. Accordingly, I concur in the result.
LUMPKIN, Judge, concurring in results:
¶1 Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a minimum concur in the results of this opinion. While our nation’s judicial structure requires me to apply the majority
opinion in the 5-4 decision of the U.S. Supreme Court in
2
The McGirt opinion tacitly acknowledges potential procedural
bars, noting the State of Oklahoma had “put aside whatever procedural defenses it might have.” McGirt, 140 S. Ct. at 2460. Those defenses would not be relevant if subject matter jurisdiction, which is
non-waivable, were concerned.

24a
McGirt v. Oklahoma, U.S. ___, 140 S. Ct. 2452 (2020), I do
so reluctantly. Upon the first reading of the majority opinion in McGirt I initially formed the belief that it was a result in search of an opinion to support it. Then upon reading the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had totally
failed to follow the Court’s own precedents, but had
cherry picked statutes and treaties, without giving historical context to them. The Majority then proceeded to do
what an average citizen who had been fully informed of
the law and facts as set out in the dissents would view as
an exercise of raw judicial power to reach a decision which
contravened not only the history leading to the disestablishment of the Indian reservations in Oklahoma, but also
willfully disregarded and failed to apply the Court’s own
precedents to the issue at hand.
¶2 My quandary is one of ethics and morality. One of
the first things I was taught when I began my service in
the Marine Corps was that I had a duty to follow lawful
orders, and that same duty required me to resist unlawful
orders. Chief Justice Roberts’ scholarly and judicially
penned dissent, actually following the Court’s precedents
and required analysis, vividly reveals the failure of the
majority opinion to follow the rule of law and apply over a
century of precedent and history, and to accept the fact
that no Indian reservations remain in the State of Oklahoma.1 The result seems to be some form of “social justice” created out of whole cloth rather than a continuation
1
Senator Elmer Thomas, D-Oklahoma, was a member of the Senate Committee on Indian Affairs. After hearing the Commissioner’s
speech regarding the Indian Reorganization Act (IRA) in 1934, Senator Thomas opined as follows:

I can hardly see where it (the IRA) could operate in a State like
mine where the Indians are all scattered out among the whites

25a
of the solid precedents the Court has established over the
last 100 years or more.
¶3 The question I see presented is should I blindly follow and apply the majority opinion or do I join with Chief
Justice Roberts and the dissenters in McGirt and recognize “the emperor has no clothes” as to the adherence to
following the rule of law in the application of the McGirt
decision?
¶4 My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I fulfill
my duties and apply the edict of the majority opinion in
McGirt. However, I am not required to do so blindly and
without noting the flaws of the opinion as set out in the
and they have no reservation, and they could not get them into
a community without you would go and buy land and put them on
it. Then they would be surrounded very likely with thickly populated white section with whom they would trade and associate. I
just cannot get through my mind how this bill can possibly be
made to operate in a State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in
Oklahoma, he did not think “we could look forward to building up
huge reservations such as we have granted to the Indians in the past.”
Id. at 157. In 1940, in the Foreword to Felix S. Cohen, Handbook of
Federal Indian Law (1942), Secretary of the Interior Harold Ickes
wrote in support of the IRA, “[t]he continued application of the allotment laws, under which Indian wards have lost more than two-thirds
of their reservation lands, while the costs of Federal administration
of these lands have steadily mounted, must be terminated.” (emphasis
added).

26a
dissents. Chief Justice Roberts and Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with the Indian reservations.
Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907, all parties accepted the fact
that Indian reservations in the state had been disestablished and no longer existed. I take this position to adhere
to my oath as a judge and lawyer without any disrespect
to our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing the
totality of the law and facts.
LEWIS, Judge, specially concurring:
¶1 I write separately to address the notion that
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020) addresses
something less than subject matter jurisdiction over an
Indian who commits a crime in Indian Country or over
any person who commits a crime against an Indian in Indian Country. McGirt, of course, serves as the latest waypoint for our discussion on the treatment of criminal cases
arising within the historic boundaries of Indian reservations which were granted by the United States Government many years ago. McGirt, 140 S. Ct. at 2460, 2480.
The main issue in McGirt was whether those reservations
were disestablished by legislative action at any point after
being granted.
¶2 McGirt deals specifically, and exclusively, with the
boundaries of the reservation granted to the Muscogee
(Creek) Nation. McGirt, 140 S. Ct. at 2459, 2479. However, the other Indian Nations comprising the Five Civilized Tribes have historical treaties with language indistinct from the treaty between the Muscogee (Creek) Nation and the federal government. Therefore, this case involving a crime occurring within the historical boundaries

27a
of the Chickasaw Nation Reservation must be analyzed in
the same manner as the boundaries of the Muscogee
(Creek) Nation Reservation. The District Court below
conducted a thorough analysis and concluded that the reservation was not disestablished. I agree with this conclusion.
¶3 McGirt was also clear that if the reservation was
not disestablished by the U.S. Congress, Oklahoma has no
right to prosecute Indians for crimes committed within
the historical boundaries of the Indian reservations.
McGirt, 140 S. Ct. at 2460. Therefore, because the Chickasaw Nation Reservation was not disestablished, the
State of Oklahoma has no authority to prosecute Indians
for crimes committed within the boundaries of the Chickasaw Nation Reservation, nor does Oklahoma have jurisdiction over any person who commits a crime against an
Indian within the boundaries of the Chickasaw Nation
Reservation as was the case here. The federal government has exclusive jurisdiction over those cases. 18 U.S.C.
§ 1153(a).
¶4 A lack of subject matter jurisdiction leaves a court
without authority to adjudicate a matter. This Court has
held that subject matter jurisdiction cannot be conferred
by consent, nor can it be waived, and it may be raised at
any time. Armstrong v. State, 1926 OK CR 259, 248 P. 877,
878; Cravatt v. State, 1992 OK CR 6, ¶ 7, 825 P.2d 277, 280;
Magnan v. State, 2009 OK CR 16, ¶¶ 9 8612, 207 P.3d 397,
402 (holding that jurisdiction over major crimes in Indian
Country is exclusively federal).
¶5 Because the issue in this case is one of subject matter jurisdiction, I concur that this case must be reversed
and remanded with instructions to dismiss.

28a
HUDSON, Judge, concurring in results:
¶1 Today’s decision applies McGirt v. Oklahoma, 140
S. Ct. 2452 (2020) to the facts of this case. I concur in the
result of the majority’s opinion based on the stipulations
below concerning the victims’ Indian status and the location of these crimes within the historic boundaries of the
Chickasaw Reservation. Under McGirt, the State cannot
prosecute Petitioner because of the Indian status of the
victims and the location of this crime within Indian Country as defined by federal law. I therefore as a matter of
stare decisis fully concur in today’s decision.
¶2 I disagree, however, with the majority’s adoption
as binding precedent of the District Court’s finding that
Congress never disestablished the Chickasaw Reservation. Here, the State took no position below on whether
the Chickasaw Nation has, or had, a reservation. The
State’s tactic of passivity has created a legal void in this
Court’s ability to adjudicate properly the facts underlying
Petitioner’s argument. This Court is left with only the
trial court’s conclusions of law to review for an abuse of
discretion. We should find no abuse of discretion based on
the record evidence presented. But we should not establish as binding precedent that the Chickasaw Nation was
never disestablished based on this record.
¶3 I also fully join Judge Rowland’s special writing
concerning the test for Indian status and the use of the
term subject matter jurisdiction.
¶4 Finally, I write separately to note that McGirt resurrects an odd sort of Indian reservation. One where a
vast network of cities and towns dominate the regional
economy and provide modern cultural, social, educational
and employment opportunities for all people on the reservation. Where the landscape is blanketed by modern

29a
roads and highways. Where non-Indians own property
(lots of it), run businesses and make up the vast majority
of inhabitants. On its face, this reservation looks like any
other slice of the American heartland—one dotted with
large urban centers, small rural towns and suburbs all
linked by a modern infrastructure that connects its inhabitants, regardless of race (or creed), and drives a surprisingly diverse economy. This is an impressive place—a
modern marvel in some ways—where Indians and non-Indians have lived and worked together since at least statehood, over a century.
¶5 McGirt orders us to forget all of that and instead
focus on whether Congress expressly disestablished the
reservation. We are told this is a cut-and-dried legal matter. One resolved by reference to treaties made with the
Five Civilized Tribes dating back to the nineteenth century. Ignore that Oklahoma has continuously asserted jurisdiction over this land since statehood, let alone the
modern demographics of the area.
¶6 The immediate effect under federal law is to prevent state courts from exercising criminal jurisdiction
over a large swath of Greater Tulsa and much of eastern
Oklahoma. Yet the effects of McGirt range much further.
The present case illuminates some of that decision’s consequences. Crime victims and their family members in
this and a myriad of other cases previously prosecuted by
the State can look forward to a do-over in federal court of
the criminal proceedings where McGirt applies. And they
are the lucky ones. Some cases may not be prosecuted at
all by federal authorities because of issues with the statute of limitations, the loss of evidence, missing witnesses
or simply the passage of time. All of this foreshadows a
hugely destabilizing force to public safety in eastern Oklahoma.

30a
¶7 McGirt must seem like a cruel joke for those victims and their family members who are forced to endure
such extreme consequences in their case. One can certainly be forgiven for having difficulty seeing where—or
even when—the reservation begins and ends in this new
legal landscape. Today’s decision on its face does little to
vindicate tribal sovereignty and even less to persuade that
a reservation in name only is necessary for anybody’s
well-being. The latter point has become painfully obvious
from the growing number of cases like this one that come
before this Court where non-Indian defendants are challenging their state convictions using McGirt because their
victims were Indian.
¶8 Congress may have the final say on McGirt. In
McGirt, the court recognized that Congress has the authority to take corrective action, up to and including disestablishment of the reservation. We shall see if any practical solution is reached as one is surely needed. In the
meantime, cases like Petitioner’s remain in limbo until
federal authorities can work them out. Crime victims and
their families are left to run the gauntlet of the criminal
justice system once again, this time in federal court. And
the clock is running on whether the federal system can
keep up with the large volume of new cases undoubtedly
heading their way from state court.

31a
APPENDIX B
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

Filed: March 19, 2021

CORRECTION ORDER
The Opinion in this case, Bosse v. State, 2021 OK CR
3, contains a scrivener’s error. The first sentence of paragraph 20 of the Opinion should read:
Both the Attorney General and the District Attorney
ask this Court to consider this case barred for a variety of procedural reasons: waiver under the successive
capital post-conviction statute, 22 O.S. 2011, § 1089(D),
and waiver of the jurisdictional challenge; failure to
meet the sixty-day filing deadline to raise a previously
unavailable legal or factual basis in subsequent postconviction applications under Rule 9.7(G)(3), Rules of

32a
the Oklahoma Court of Criminal Appeals, Title 22,
Ch. 18, App. (2021); and the doctrine of laches.
IT IS SO ORDERED.

33a
APPENDIX C
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

Filed: August 12, 2020

ORDER REMANDING FOR
EVIDENTIARY HEARING
Shaun Michael Bosse was tried by jury, convicted of
Counts I-III, First Degree Murder, and Count IV, First
Degree Arson, and sentenced to death (Counts I-III) and
thirty-five (35) years imprisonment and a fine of
$25,000.00 (Count IV), in the District Court of McClain
County, Case No. CR-2010-213. This Court upheld Petitioner’s convictions and sentences in Bosse v. State, 2017
OK CR 10, 400 P.3d 834, reh’g granted and relief denied,
2017 OK CR 19, 406 P.3d 26, cert. denied, 138 S. Ct. 1264
(2018). This Court denied Petitioner’s first Application for
Post-Conviction Relief. Bosse v. State, No. PCD-2013-360

34a
(Okl. Cr. Dec. 16, 2015) (not for publication). Petitioner
filed this Successive Application for Post-Conviction Relief on February 20, 2019. In Proposition I, Petitioner
challenges the State’s jurisdiction to prosecute him.
In Proposition I Petitioner claims the District Court
lacked jurisdiction to try him. Petitioner argues that his
victims were citizens of the Chickasaw Nation, and the
crime occurred within the boundaries of the Chickasaw
Nation. Under the particular facts and circumstances of
this case, and based on the pleadings in this case before
the Court, we find that Petitioner’s claim is properly before this court. The issue could not have been previously
presented because the legal basis for the claim was unavailable. 22 O.S. §§ 1089(D)(8)(a), 1089(D)(9)(a); McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020).
Appellant’s claim raises two separate questions: (a)
the status of his victims as Indians, and (b) whether the
crime occurred in Indian Country. These issues require
fact-finding. We therefore REMAND this case to the District Court of McClain County, for an evidentiary hearing
to be held within sixty (60) days from the date of this Order.
Recognizing the historical and specialized nature of
this remand for evidentiary hearing, we request the Attorney General and District Attorney work in coordination to effect uniformity and completeness in the hearing
process. Upon Petitioner’s presentation of prima facie evidence as to the legal status as Indians of Petitioner’s victims, and as to the location of the crime in Indian Country,
the burden shifts to the State to prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court reporter shall file an original and two (2) certified copies of

35a
the transcript within twenty (20) days after the hearing is
completed. The District Court shall then make written
findings of fact and conclusions of law, to be submitted to
this Court within twenty (20) days after the filing of the
transcripts in the District Court. The District Court shall
address only the following issues.
First, the status as Indians of Appellant’s victims. The
District Court must determine whether (1) the victims
had some Indian blood, and (2) were recognized as an Indian by a tribe or by the federal government.1
Second, whether the crime occurred in Indian Country. The District Court is directed to follow the analysis
set out in McGirt, determining (1) whether Congress established a reservation for the Chickasaw Nation, and (2)
if so, whether Congress specifically erased those boundaries and disestablished the reservation. In making this determination the District Court should consider any evidence the parties provide, including but not limited to
treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record of
the evidentiary hearing, the District Court’s findings of
fact and conclusions of law, and any other materials made
a part of the record, to the Clerk of this Court, and counsel
for Appellant, within five (5) days after the District Court
has filed its findings of fact and conclusions of law. Upon
receipt thereof, the Clerk of this Court shall promptly deliver a copy of that record to the Attorney General. A supplemental brief, addressing only those issues pertinent to
the evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty (20)
See, e.g., United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001).
1

36a
days after the District Court’s written findings of fact and
conclusions of law are filed in this Court.
Provided however, in the event the parties agree as to
what the evidence will show with regard to the questions
presented, they may enter into a written stipulation setting forth those facts upon which they agree and which
answer the questions presented and provide the stipulation to the District Court. In this event, no hearing on the
questions presented is necessary. Transmission of the
record regarding the matter, the District Court’s findings
of fact and conclusions of law and supplemental briefing
shall occur as set forth above.
IT IS FURTHER ORDERED that the Clerk of this
Court shall transmit copies of the following, with this Order, to the District Court of McClain County: Petitioner’s
Successive Application for Post-Conviction Relief filed
February 20, 2019; and Respondent’s Response to Petitioner’s Proposition 1 in Light of the Supreme Court’s Decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020), filed
August 4, 2020.
IT IS SO ORDERED.

37a
APPENDIX D
DISTRICT COURT OF MCCLAIN COUNTY
STATE OF OKLAHOMA

No. CF-2010-213, PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

Filed: October 13, 2020

FINDING FACTS AND CONCLUSION OF LAW
Before: EDWARDS, District Judge.
This matter came on for hearing the 30th day of September, 2020 pursuant to the remand order of the Oklahoma Court of Criminal Appeals issued August 12, 2020.
Petitioner appeared by and through Assistant Federal
Public Defenders Michael Lieberman and Sarah Jernigan. Petitioner previously filed a written Waiver of Right
to Appear at Evidentiary Hearing and this Court approved the same. Respondent appeared by and through
Assistant Attorneys General Caroline Hunt and Jennifer
Crabb, along with District Attorney Greg Mashburn and

38a
First Assistant District Attorney Travis White. The
Chickasaw Nation of Oklahoma appeared as Amicus Curiae, pursuant to the agreement of the parties, by and
through counsel Debra Gee and Stephen Greetham. A
record was taken by Certified Court Reporter Dawn
Flick. The parties announced ready for hearing and Respondent asserted full compliance with Okla. Const. art.
2, § 34.
This matter was remanded to the District Court by the
Oklahoma Court of Criminal Appeals to address only: (1)
the status as Indians of Petitioner’s victims; and (2)
whether the crime occurred in Indian Country. This
Court will address each of the issues separately.
I. The Status as Indians of Petitioner’s Victims
The Oklahoma Court of Criminal Appeals (hereinafter
referred to as “OCCA”) remanded the above-entitled
matter to this Court to determine, inter alia, the status as
Indians of Petitioner’s victims.1 In making the determination, the OCCA further directed this Court to evaluate
whether (1) the victims had some Indian blood, and (2)
were recognized as an Indian by a tribe or by the federal
government.2 In complying therewith, the Court undertakes the following analysis:
Findings of Fact
1. Katrina Griffin, Christian Griffin and Chasity
Hammer were the named victims in the above-entitled
matter.

Order Remanding for Evidentiary Hearing filed August 12, 2020,
pg. 3.
1

2

Id.

39a
2. The parties stipulated that Katrina Griffin was an
Indian for purposes of the General Crimes Act, 18 U.S.C.
1152.3
3. The parties stipulated that Christian Griffin had
23/256ths Indian blood quantum and was recognized as a
Chickasaw Nation Citizen.4
4. The parties stipulated that Chasity Hammer had
23/256ths Indian blood quantum and was recognized as a
Chickasaw Nation Citizen.5
Conclusions of Law
As set forth above, in assessing the status as Indians
of Petitioner’s victims, the OCCA ordered this Court to
determine whether (1) the victims had some Indian blood
and (2) were recognized as an Indian by a tribe or by the
federal government.6 With respect to victim Katrina Griffin, the parties stipulated that she was an Indian for purposes of the General Crimes Act; this Court adopts the
parties stipulations and finds that Katrina Griffin was, in
fact, an Indian victim.
With regard to victims Christian Griffin and Chasity
Hammer, this Court must first consider whether they
each had some Indian blood.7 Respondent noted in the
State’s Supplemental Proposed Findings of Fact and
Conclusions of Law that the term ‘Indian’ is not statutorily defined, but has been previously defined by different
3

Pet. Ex. 1, Stipulations (2)(a).

4

Pet. Ex. 1, Stipulations (2)(b).

5

Pet. Ex. 1, Stipulations (2)(c).

Order Remanding for Evidentiary Hearing filed August 12, 2020,
pg. 3.
6

7

Id.

40a
courts to require “a significant percentage of”8, “sufficient”9, “substantial”10 or “some”11 Indian blood. However,
the OCCA was clear in its mandate when it ordered this
Court to determine “whether the victims had some Indian
blood.”12 This Court answers this inquiry in the affirmative.
The record before this Court is clear. The parties stipulated that both Christian Griffin and Chasity Hammer
had 23/256th Indian blood quantum.13 This Court adopts
the parties’ stipulations and, as a result, finds that Christian Griffin and Chasity Hammer both had “some Indian
blood.”
Likewise, this Court also finds that the second prong
of the analysis, recognition as an Indian by a tribe or by
the federal government, has been satisfied. Specifically,
the parties stipulated that both of these victims were recognized as Chickasaw Nation citizens.14 This stipulation is
further supported by the memoranda of the Chickasaw
Nation verifying the tribal enrollment of Christian Griffin
and Chasity Hammer.15 After adopting the stipulations of
the parties and answering answered both questions in the
8

Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.

9

United States v. LaBuff, 658 F.3d 873, 874-75 (9th Cir. 2011).

10

Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).

11
United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Dodge, 538 F.2d 770, 786 (8th Cir. 1976).

Order Remanding for Evidentiary Hearing filed August 12, 2020,
pg. 3.
12

13

Pet. Ex. 1, Stipulations 2(b) and 2(c).

14

Pet. Ex. 1, Stipulations (2)(c).

15

Pet. Ex. 1, Stipulations (2)(d).

41a
affirmative, this Court finds that Christian Griffin and
Chasity Hammer were, in fact, Indian victims.
WHEREFORE, this Court finds that Katrina Griffin,
Christian Griffin and Chasity Hammer were Indian victims.16
II. Whether the Crime Occurred in Indian Country
The OCCA further remanded the above-entitled matter for this Court to determine whether the crime occurred in Indian Country.17 In making the determination,
the OCCA directed this Court to ascertain (1) whether
Congress established a reservation for the Chickasaw Nation, and (2) if so, whether Congress specifically erased
those boundaries and disestablished the reservation.18
Therefore, the Court undertakes the following analysis:
Findings of Fact
1. The Indian Removal Act of 1830 authorized the
President’s representatives to negotiate with Native
American tribes for their removal to federal territory
west of the Mississippi River in exchange for their ancestral lands.19
2. Pursuant to the authority outlined in the Indian
Removal Act of 1830, the 1830 Treaty of Dancing Rabbit
Creek was entered. Specifically, in the 1830 Treaty of
Dancing Rabbit Creek, the United States granted to the
Order Remanding for Evidentiary Hearing filed August 12, 2020,
pg. 3; United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012); Untied States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
16

17
Order Remanding for Evidentiary Hearing filed August 12, 2020,
pg. 3.
18

Id. at 3-4.

19

Indian Removal Act of 1830, Pet. Ex. 7.

42a
Choctaw Nation certain lands “in fee simple to them and
their descendants, to insure to them while they shall exist
as a nation and live on it” in exchange for the Choctaw
Nation ceding their lands east of the Mississippi River.20
Article 4 granted the Choctaw people “the jurisdiction and
government of all the persons and property that may be
within their limits west, so that no Territory or State shall
ever have a right to pass laws for the government of the
Choctaw Nation of Red People and their descendants; and
that no part of the land granted them shall ever be embraced in any Territory or State.”21 The land granted to
the Choctaw Nation was described as: “beginning near
Fort Smith where the Arkansas boundary crosses the Arkansas River, running thence to the source of the Canadian fork; if in the limited of the United States, or to those
limits; thence due south to Red River, and down Red
River to the west boundary of the Territory of Arkansas;
thence north along that line to the beginning.”22
3. The 1837 Treaty of Doaksville granted the Chickasaw people a “district within the limits of [the 1830 Treaty
of Dancing Rabbit Creek territory] to be held on the same
terms that the Choctaws now hold it [ . . . ].”23 The 1837
Treaty entered between the Choctaws and Chickasaws
made the provisions of the 1830 Treaty of Dancing Rabbit
Creek applicable to the Chickasaw Nation.24
4. In 1855, the Treaty of Washington reaffirmed the
1837 Treaty of Doaksville and modified the Western
20

1830 Treaty of Dancing Rabbit Creek, Pet. Ex. 8, art. 2.

21

Id. at Pet. Ex. 8, art. 4.

22

Id.

23

1837 Treaty of Doaksville, Pet. Ex. 10, art. 1.

24

Id.

43a
boundary of the Chickasaw territory.25 Congress explicitly asserted that “pursuant to [the Indian Removal Act],
the United States do hereby forever secure and guarantee
the lands embraced within the said limits, to the members
of the Choctaw and Chickasaw tribes” and reserved those
lands from sale “without the consent of both tribes.”26 The
1855 Treaty further reaffirmed the Chickasaw Nation’s
right of self-government.27
5. Following the Civil War, the Chickasaw and Choctaw Nations entered into the 1866 Treaty, which did not
alter the Chickasaw district but reiterated, once again,
the Choctaw and Chickasaw Nations’ rights to self-governance and reaffirmed the rights granted under the previous Treaties.28
6. The parties stipulated that Petitioner’s crime occurred at 15734 212th St., Purcell, OK, and further stipulated that this “address is within the boundaries set forth
in the 1855 and 1866 treaties between the Chickasaw Nation, the Choctaw Nation, and the United States.”29
7. The property on which the crime occurred was originally transferred directly from the Choctaw and Chickasaw
Nations in a Homestead Patent to George Roberts in 1905.30
Title to the property can be traced directly to the Reservation granted to the Choctaw and Chickasaw Nations by the

25

1855 Treaty of Washington, Pet. Ex. 12, art. 2.

26

Id. at art. 1.

27

Id. at art. 7.

28

1866 Treaty of Washington, Pet. Ex. 13, art. 10.

29

Stipulations (1)(a).

30

Tr. pg. 11, ln. 21-25.

44a
United States and subsequently allotted to individuals, and
was never owned by the State of Oklahoma.31
8. The Chickasaw nation is a federally recognized Indian tribe that exercised sovereign authority under a constitution approved by the Secretary of Interior.32
9. There is absolutely no evidence before the Court that
these treaties have been formally nullified or modified in any
way to reduce or cede the Chickasaw lands to the United
States or to any other state or territory.
10. The parties further stipulated that “[i]f the Court determines that those treaties established a reservation, and if
the court further concludes that Congress never explicitly
erased those boundaries and disestablished that reservation, then the crime occurred within Indian Country as defined by 18 U.S.C. 1151(a).33

Conclusions of Law
First, the Court finds that a reservation was established for the Chickasaw Nation by the treaties discussed
above. Title 18 U.S.C. 1151(a) defines “Indian Country” as
“all land within the limits of any Indian reservation under
the jurisdiction of the United States Government . . . ” As
noted by the United States Supreme Court in McGirt v.
Oklahoma, 140 S. Ct. 2452, 2461, “early treaties did not
refer to the Creek lands as a ‘reservation’—perhaps because that word had not yet acquired such distinctive significance in federal Indian law. But we have found similar
language in treaties from the same era sufficient to create
a reservation.” The Court in McGirt stated that the “most
authoritative evidence of [a tribe’s] relationship to the
31

Pet. Ex. 2; Tr. pg. 13, ln. 10-16, pg. 14, ln. 14-19.

32

Constitution of the Chickasaw Nation, Pet. Ex. 5.

33

Pet. Ex. 1, Stipulations (1)(b).

45a
land . . . lies in the treaties and statutes that promised the
land to the Tribe in the first place.”34 It specifically noted
that Creek treaties promised a “permanent home” that
would be “forever set apart,” and assured a right to selfgovernment on lands that would lie outside both the legal
jurisdiction and geographic boundaries of any state.35 As
such, the Supreme Court found that, “Under any definition, this was a [ ] reservation.”36 The Chickasaw Nation is
subject to the same analysis.
In applying the reasoning the Supreme Court used in
McGirt to the case at bar, this Court must reach the same
conclusion. Specifically, in the 1830 Treaty of Dancing
Rabbit Creek, the Choctaw Nation was granted the land
in question “in fee simple to them and their descendants,
to insure to them while they shall exist as a nation.”37 It
secured the rights of self-government and jurisdiction
over all persons and property within the Treaty Territory
and promised that no state shall interfere with those
rights.38
These rights applied equally to the Chickasaw Nation
under the 1837 Treaty of Doaksville.39 The Treaty of
Doaksville secured to the Chickasaw Nation a “district
within the limits of [the Treaty Territory],” and guaran-

34

McGirt, 140 S. Ct. at 2475-76.

35

Id. at 2461-62.

36

Id. at 2461.

37

Pet. Ex. 8, art. 2.

38

Id. at art. 4.

39

Pet. Ex. 10.

46a
teed them the same privileges, rights of homeland ownership and occupancy that the Choctaw held under the 1830
Treaty.40
In the 1855 Treaty of Washington, the Choctaw and
Chickasaw governments were made independent of each
other. The United States promised that it does “hereby
forever secure and guarantee the lands embraced within
the said limits, to the members of the Choctaw and Chickasaw tribes,” and explicitly reserved those lands from sale
“without the consent of both tribes.”41 It reaffirmed the
tribes’ rights of self-government, stating “the Choctaws
and Chickasaws shall be secured in the unrestricted right
of self-government, and full jurisdiction, over persons
and property, within their respective limits . . . ”42 The
aforementioned treaty rights were once again reaffirmed
in the 1866 Treaty of Washington, which was entered
when the Chickasaw and Choctaw Nations agreed to cede
certain defined lands to the United States for a sum of
money.43 Therefore, like the Creek treaty promises, the
United States’ treaty promises to the Chickasaw Nation
were not made gratuitously.44
Applying the reasoning used by the United States Supreme Court in McGirt, the plain wording of the treaties
demonstrate the Chickasaw lands were set aside for the
Chickasaw people and their descendants and assured the
right to self-government on lands that would lie outside
both the legal jurisdiction and geographic boundaries of
40

Id. art. 1.

41

Pet. Ex. 12, art. 1.

42

Id. art. 7.

43

Pet. Ex. 13, art. 2.

44

McGirt, 140 S. Ct. at 2460.

47a
any state.45 It is, therefore, clear that Congress established a reservation for the Chickasaw Nation.
Upon finding that a reservation was established by
Congress for the Chickasaw Nation, this Court must next
determine whether Congress has erased those boundaries and disestablished the reservation.46 As the Supreme
Court made clear in McGirt, “[t]o determine whether a
tribe continues to hold a reservation, there is only one
place we may look: the Acts of Congress.”47 The constitutional authority to breach a Treaty “belongs to Congress
alone,” and the Court will not lightly infer such a breach
“once Congress has established a reservation.”48 “[On]ce
a reservation is established, it retains that status ‘until
Congress explicitly indicates otherwise.’”49 While “[d]isestablishment has never required any particular form of
words, it does require that Congress clearly express its
intent to do so, [c]ommon[ly] with an] [e]xplicit reference
to cession or other language evidencing the present and
total surrender of all tribal interests.”50
The Petitioner and the State disagree where the burden to prove disestablishment should be placed. However,
regardless which party bears the burden, no evidence was
presented to the Court to establish that Congress explic-

45

McGirt, 140 S. Ct. at 2461-62.

46
Order Remanding for Evidentiary Hearing filed August 12, 2020,
pg. 3-4.
47

McGirt, 140 S. Ct. at 2462.

48

Id.

49

Id. at 2469 (quoting Solem v. Bartlett, 465 U.S. 463, 470 (1984)).

McGirt, 140 S. Ct. at 2463 (quoting Nebraska v. Parker, 136 S.
Ct. 1072, 1079 (2016)).
50

48a
itly erased or disestablished the boundaries of the Chickasaw nation or that the State of Oklahoma has jurisdiction
of this matter. No evidence was presented that the Chickasaw reservation was “restored to public domain,”51 “discontinued, abolished or vacated.”52 Without, explicit evidence of a present and total surrender of all tribal interests, the Court cannot find the Chickasaw reservation was
disestablished.53
This Court finds that Congress established a reservation for the Chickasaw Nation, and Congress never specifically erased those boundaries and disestablished the
reservation. Therefore, the crime occurred in Indian
Country.
CONCLUSION
WHEREFORE, this Court finds that Katrina Griffin,
Christian Griff and Chasity Hammer were Indians and
that the crime for which Petitioner was convicted occurred in Indian Country for purposes of the General
Crimes Act, 18 U.S.C. 1152.
IT IS HEREBY ORDERED!

51

Id. at 2462.

52

Mattz v. Arnett, 412 U.S. 481, 504 (1973).

53

McGirt, 140 S. Ct. at 2463.

49a
APPENDIX E
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
No. PCD-2019-124
SHAUN MICHAEL BOSSE,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.
Filed: March 31, 2021
ORDER STAYING ISSUANCE OF MANDATE
On March 31, 2021, Respondent filed with this Court a
Motion for Leave to File Petition for Rehearing in this
capital post-conviction case granting relief, Bosse v. State,
2021 OK CR 3. In accordance with Rules 5.5 and 3.15(A),
this Court stayed issuance of mandate for twenty days
from the filing and delivery of the Opinion. Rule 5.5,
3.15(A), Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App. (2021).
Mandate in this case is hereby STAYED until this
court issues a decision on Respondent’s Motion for Leave
to File Petition for Rehearing.
IT IS SO ORDERED.

50a
APPENDIX F
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

Filed: April 7, 2021

ORDER DENYING MOTION FOR LEAVE TO FILE
PETITION FOR REHEARING AND DIRECTING
COURT CLERK TO RETURN DOCUMENTS
On March 31, 2021, Respondent filed with this Court a
Motion for Leave to File Petition for Rehearing in this
capital post-conviction case granting relief, Bosse v. State,
2021 OK CR 3.
As Respondent admits, this Court's Rule 5.5 prohibits
this filing. Rule 5.5, Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch.18, App. (2021). Once this Court
has rendered its decision in a post-conviction appeal that

51a
decision shall constitute a final order. A petition for rehearing is not allowed, and we will not review such a request.1 The Clerk of this Court is directed to return Respondent’s documents, and to transmit a copy of this order to the District Court of McLain County, the Honorable Leah Edwards, District Judge; the Court Clerk of
McLain County; counsel of record and Respondent.
IT IS SO ORDERED.

1
The State argues that application of this rule is unfair because it
is “seemingly happenstance” that these issues were first raised in a
post-conviction proceeding. However, this Court notes that the State,
as a party to the case, chose this case in which to raise these issues.

52a
APPENDIX G
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

Filed: April 9, 2021

ORDER GRANTING EMERGENCY MOTION TO
TEMPORARILY RECALL THE MANDATE
PENDING ORAL ARGUMENT
On April 7, 2021, this Court issued the mandate in this
capital post-conviction case granting relief, Bosse v. State,
2021 OK CR 3. Respondent then filed with this Court a
motion to recall the mandate. On April 8, 2021, we set that
motion for oral argument on Thursday, April 15, 2021, at
10:00 a.m.
On April 8, 2021, Respondent filed an emergency motion to temporarily recall the mandate pending oral argument in this Court. Respondent’s request to temporarily

53a
recall the mandate pending oral argument in this Court is
GRANTED. The Clerk of this Court is directed to transmit a copy of this order to the District Court of McLain
County, the Honorable Leah Edwards, District Judge;
the Court Clerk of McLain County; counsel of record,
amicus curiae, and Respondent.
IT IS SO ORDERED.

54a
APPENDIX H
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

Filed: April 15, 2021

ORDER STAYING ISSUANCE OF MANDATE
On April 7, 2021, Respondent filed with this Court a
motion to recall the mandate in this capital post-conviction
case granting relief, Bosse v. State, 2021 OK CR 3. Oral
argument was heard on this request on April 15, 2021. Respondent’s request is GRANTED. This Court hereby
stays issuance of the mandate for forty-five (45) days from
the date of this Order. Mandate will automatically issue at
the end of forty-five days.
IT IS SO ORDERED.

55a
HUDSON, J., concurring in part/dissenting in part
I concur in today’s decision to grant a stay of mandate
for forty-five days. However, I would go further and continue the stay of mandate for the pendency of the State’s
certiorari appeal to the United States Supreme Court.

56a
APPENDIX I
Section 1151 of Title 18 of the United States Code provides:
Except as otherwise provided in sections 1154 and
1156 of this title, the term “Indian country”, as used in
this chapter, means (a) all land within the limits of any
Indian reservation under the jurisdiction of the United
States Government, notwithstanding the issuance of
any patent, and, including rights-of-way running
through the reservation, (b) all dependent Indian communities within the borders of the United States
whether within the original or subsequently acquired
territory thereof, and whether within or without the
limits of a state, and (c) all Indian allotments, the Indian titles to which have not been extinguished, including rights-of-way running through the same.
Section 1152 of Title 18 of the United States Code provides:
Except as otherwise expressly provided by law, the
general laws of the United States as to the punishment
of offenses committed in any place within the sole and
exclusive jurisdiction of the United States, except the
District of Columbia, shall extend to the Indian country.
Section 1089(D) of Title 22 of the Oklahoma Statutes
provides:
8. If an original application for post-conviction relief
is untimely or if a subsequent application for postconviction relief is filed after filing an original application, the Court of Criminal Appeals may not

57a
consider the merits of or grant relief based on the
subsequent or untimely original application unless:
a. the application contains claims and issues
that have not been and could not have been
presented previously in a timely original application or in a previously considered application filed under this section, because the
legal basis for the claim was unavailable
* * * .
9. For purposes of this act, a legal basis of a claim is
unavailable on or before a date described by this
subsection if the legal basis:
a. was not recognized by or could not have
been reasonably formulated from a final decision of the United States Supreme Court,
a court of appeals of the United States, or a
court of appellate jurisdiction of this state
on or before that date, or
b. is a new rule of constitutional law that was
given retroactive effect by the United
States Supreme Court or a court of appellate jurisdiction of this state and had not
been announced on or before that date.

